September 30, 2005

MEMORANDUM FOR:          EMILY STOVER DeROCCO
                         Assistant Secretary for
                           Employment and Training




FROM:                    ELLIOT P. LEWIS
                         Assistant Inspector General
                           for Audit

SUBJECT:                 Insufficient Federal Guidance
                         Could Result in Misuse of Incumbent
                         Worker Training Program Funds
                         Management Letter No. 06-05-003-03-390


SUMMARY

The Department of Labor should strengthen its guidance to states on how to properly
spend Workforce Investment Act (WIA) incumbent worker funds. Lack of such guidance
could lead to misuse of funds as evidenced by the State of Arkansas’ use of WIA funds
as incentive monies offered to the Nestle Corporation to locate in Jonesboro, Arkansas.
Under the existing WIA, only the State can fund incumbent worker training under the
Governor’s 15 percent statewide set-aside funds.

Our concern over lack of Federal guidance is timely since proposed legislation for WIA
reauthorization provides that local boards could spend up to 10 percent of their funds for
incumbent worker training. Consequently, more funds may be spent on this program in
the future.

The purpose of this management letter is to communicate our conclusions and make
recommendations for corrective action.

BACKGROUND

The Arkansas Division of Legislative Audit (ADLA) received a complaint alleging
mismanagement of State and/or Federal funds by the Arkansas Workforce Investment
Board (AWIB), the Arkansas Employment Security Department (AESD), and the
Northeast Arkansas Workforce Investment Board (NEAWIB). The ADLA requested the
Office of Inspector General’s (OIG) assistance in reviewing the allegations involving
U.S. Department of Labor (DOL) funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

One of the objectives of our performance audit1 was to determine whether the NEAWIB
promised Nestle Corporation $1 million in WIA funds as incentive money to attract the
industry to Jonesboro, Arkansas.

For the allegation regarding the incumbent worker training, we reviewed the AWIB’s
minutes dated May 8, 2001, through August 20, 2004. We interviewed AWIB, AESD,
NEAWIB, and Nestle Corporation staff; reviewed participant files, previously issued
audit reports and state auditors’ working papers and other documents as related to the
allegations; and researched Federal and State laws, regulations, policies and
procedures. We performed fieldwork at the AESD and AWIB offices in Little Rock,
Arkansas, and Nestle’s food processing plant in Jonesboro, Arkansas.

We conducted and reported our work in accordance with Government Auditing
Standards.

This management letter should be read in conjunction with the audit report identified in
footnote 1.

ISSUE: Federal incumbent worker training funds are intended to pay for
upgrading current workers skills, not business start-up cost or production costs.

The preamble to the final WIA Regulations states that incumbent worker training is
targeted to workers of a specific employer or employer association to upgrade skills of a
particular workforce. We do not believe that WIA Regulations allow employers to use
incumbent worker funds to pay for start-up production costs. According to the preamble
to the WIA Rules and Regulations published in Federal Register, Volume 65, No. 156,
August 11, 2000, page 49333:

     Generally, incumbent worker training is developed with an employer or
     employer association to upgrade skills of a particular workforce. It usually
     takes place in the workplace or after work hours for employees of a
     specific employer or employer association. . . Frequently, such training
     is part of an economic development or business retention strategy
     developed by a State. In such cases, the employer is involved in the
     arrangement of the training curricula and usually has a role in the
     selection of the training provider. . . .



1
 On March 31, 2005, the OIG issued Report Number 06-05-002-03-390, Review of Allegations Regarding
ETA Funds Granted to Arkansas.



                                           2
The AWIB contract with Nestle was used to pay part of the cost of supervisors’ salaries
at the plant in Jonesboro rather than for outside training instructors or courses. The
newly constructed plant had both new production equipment and all new employees.
Thus, all employees received on-the-job training including some training provided by
original equipment manufacturing representatives, prior to production start up.
Additionally, employees received some classroom training in plant operating policies
and procedures. We concluded the training represented start-up costs for a new plant,
not training for incumbent workers. The $859,904 the AWIB reimbursed Nestle under
the guise of an incumbent worker training program was incentive money for locating its
plant in Jonesboro, Arkansas and these Federal funds supplanted the employer’s costs.

ISSUE 2: No Federal criteria define how long an employer must be in
business or employee must be employed to qualify as an incumbent
worker. Consequently, a state could decide that any employer or
employee can qualify for a WIA funded incumbent worker program.

WIA rules in 667.262 prohibit spending WIA Title I funds on “employment generating
activities, economic development, and other similar activities, unless they are directly
related to training for eligible individuals. . . .” However, no Federal definition of “eligible
individual” exists for incumbent worker training. Instead each state defines eligibility for
“incumbent worker” services since incumbent worker training is an allowable statewide
activity under WIA section 134(a)(3)(A)(iv)(I). According to final WIA regulations
(Section 665.220):

             States may establish policies and definitions to determine which workers
             or groups of workers are eligible for incumbent worker services under this
             subpart. An incumbent worker is an individual who is employed, but an
             incumbent worker does not necessarily have to meet the eligibility
             requirements of intensive and training services for employed adults and
             dislocated workers at 20 CFR 663.220(b) and 663.310.

Arkansas did not have a policy specifically defining WIA “incumbent worker” eligibility
other than its “Arkansas Incumbent Workforce Training Program Application and
Instructions.” Page 5 of this document provides:

       The goal of Arkansas’ [WIA] Incumbent Workforce funds is to train the current
       and newly hired workers as industry demands. . . .

This statement makes any employee in the State eligible for incumbent worker training
funds even though under WIA these funds are intended to “upgrade skills of a particular
workforce.“ All Nestle’s newly hired employees were considered incumbent workers.

The State of Arkansas had established a State “incumbent worker” training program
prior to WIA that the Arkansas Department of Economic Development operated. This
State program defined eligible workers and employers.




                                           3
The Arkansas Existing Workforce Training Act (Act 791 of 1995), as amended by
Senate Bill 280 during the 82nd General Assembly, Regular Session, 1999, provides
that “eligible recipients” for such training program means “a full-time permanent
employee of an Arkansas company. . . .” The Rules and Regulations for this training
program defines a “full-time permanent employee” as a person “working at an Arkansas
company, who has been working at the company for at least twenty-six (26) weeks and
who works at least thirty (30) hours a week.” In addition, an eligible company was
defined as one that had filed an Arkansas income tax return for the year before filing an
application for incumbent worker training funds.

However, the State chose not to apply these eligibility criteria to the WIA incumbent
worker funds it awarded to Nestle. The Nestle WIA contract was negotiated prior to
Nestle locating in Jonesboro, and before the company had any Jonesboro employees.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

     1. Issue guidance to the states that clarifies that incumbent worker training
        programs are intended to pay for skills upgrading, not start-up training costs for
        a new business. Such guidance might state that skills upgrading includes
        training that:

            a. helps an employer’s existing workforce to keep up with technology or
               other job changes to allow employees to keep their jobs, or

            b. help workers acquire skills to allow them to be promoted to higher
               paying jobs.

     2. Issue guidance to the states encouraging the states to:

            a. Establish policies and definitions that set some minimum time period for
               a company to be in business in a state in order to qualify for incumbent
               worker training funds available under either WIA statewide activities or
               local board activities (if current WIA reauthorization proposal becomes
               law); and

            b. Set some minimum time for a worker to be employed by his or her
               current employer in order to qualify as an incumbent worker.

     3. Seek to incorporate the recommendations, cited above, into the WIA
        reauthorization legislation.




                                        4
Agency Response

ETA disagreed with the OIG’s findings in the draft Management Letter that
Arkansas’ use of Workforce Investment Act (WIA) funding for incumbent worker
training was contrary to WIA statute and regulations. However, ETA agreed that
additional policy guidance is needed as it relates to both incumbent worker training
generally and economic development and employer generating activities that are
prohibited by WIA.

The response referenced ETA’s policy position that, for the workforce investment
system to be relevant and successful in promoting a competitive workforce, it must
always be framed in the context of economic development. Also, the response
stated that it is a premise of WIA to provide states and local areas with maximum
flexibility to design a workforce investment system and utilize funding in ways that
meet the unique needs of states and local areas.

While ETA does not agree with limiting the states definition of “incumbent workers,”
ETA stated its position is that incumbent workers may include any employed worker.
ETA also stated that clarity is needed regarding incumbent worker training policy
and ETA had already begun developing policy guidance prior to this management
letter.

A complete copy of ETA’s response to the draft report is included as an attachment
to this report.

OIG’s Conclusion

Additional policy guidance from ETA regarding incumbent worker training will be
helpful. However, we disagree with the specific comments regarding the State’s use
of incumbent worker training funds.

OIG’s report, Report No. 06-05-002-03-390, Review of Allegations Regarding ETA
Funds Granted to Arkansas, provides factual evidence that WIA funds were
committed for an economic development incentive (for Nestle Corporation to
establish a new plant) prior to Nestle’s establishing the plant or hiring employees. In
other words, at the time of the commitment, there were no employees. WIA
regulations at 20 CFR 667.262 (a) prohibit the spending of WIA Title I funds on
“employment generating activities, economic development, and other similar
activities, unless they are directly related to training for eligible individuals.” There
was no representation or documentation that the employees who received training
met the WIA eligibility requirements.

Also, ETA’s assertion that the term incumbent workers may include any employed
worker is tantamount to saying that the term has no specific meaning in the context
of the program. We question why the drafters of WIA would choose to authorize a




                                     5
special program for incumbent workers if, in fact, the term could apply broadly to any
employed worker.

The report recommendations are unresolved pending receipt and review of the
policy guidance ETA is preparing on incumbent worker training and economic
development activities.

Attachment




                                    6
7
8
9
10
